CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE
MASTERCARD C
This document is incorporated into and becomes part of your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Penalty APR and When it Applies
Paying Interest

For Credit Card Tips from the
Consumer Financial Protection Bureau

14.74%
This APR will vary with the market based on the Prime Rate.
14.74%
This APR will vary with the market based on the Prime Rate.
16.74%
This APR will vary with the market based on the Prime Rate.
None
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee

None
None
None

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See
your account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
For California Borrowers, this credit card is a secured credit card. Credit extended under this credit card account
is secured by various personal property and money including, but not limited to: (a) any goods you purchase
with this account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of
Shares, (c) all shares you have in any individual or joint account with the credit union excluding shares in an
Individual Retirement Account or in any other account that would lose special tax treatment under state or
federal law, and (d) collateral securing other loans you have with the credit union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the credit union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Military Lending Act Disclosures: Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

SEE NEXT PAGE for more important information about your account.
I003554
03100017-MXC20-C-1-112017 (MXC201-E)

products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a
credit card account).
To receive this notice verbally, please call (800) 727-3328 during our normal business hours.
Other Fees & Disclosures:
Late Payment Fee: $25.00 or 5.00% of the amount of the required minimum payment, whichever is less, if you are 15 or
more days late in making a payment. If your account is subject to a Late Payment Fee, the fee will be charged to your
account when you do not make the required minimum payment by or within the number of days of the statement Payment
Due Date set forth on this Disclosure.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less. If your account is
subject to a Returned Payment Fee, the fee will be charged to your account when a payment is returned for any reason.
Collection Costs: You agree to pay all costs of collecting the amount you owe under this Agreement, including court
costs and reasonable attorney fees.
Periodic Rates:
The Purchase APR is 14.74% which is a monthly periodic rate of 1.2283%.
The Balance Transfer APR is 14.74% which is a monthly periodic rate of 1.2283%.
The Cash Advance APR is 16.74% which is a monthly periodic rate of 1.3950%.
Variable Rate: The ANNUAL PERCENTAGE RATE is subject to change quarterly to reflect any change in the Index and
will be determined by the Prime Rate 45 days prior to the first day of each calendar quarter (January, April, July and
October) as published in The Wall Street Journal “Money Rates” table to which we add a margin. The ANNUAL
PERCENTAGE RATE will never be greater than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will take
the form of additional payments shown as Total Minimum Payments on the statement. If the Index is no longer available,
the credit union will choose a new index which is based upon comparable information.
Margin:
Purchases will be charged at 9.99% above the Index.
Balance Transfers will be charged at 9.99% above the Index.
Cash Advances will be charged at 11.99% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

I003554

03100017-MXC20-C-1-112017 (MXC201-E)

